PROOF OF SERVICE
I, Leon Hawkins , do swear or declare that on this date,, 20 , as required by Supreme Court Rule 29
I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and with first-class
postage prepaid, or by delivery to a third-party commercial carrier for delivery within 3 calendar
days.
The names and addresses of those served are as follows:

I declare under penalty of perjury that the foregoing is true and correct
Executed on

b-53- SO3.0

,20

(Signature)
CLYDE SPENCER
NOTARY PUBLIC
.A—STATE OF OHIO

I lllStllSf I

ROSS COUNTY
MY COMMISSION EXPIRES
MARCH 6,2023

